Pension Benefit Guaranty Corporation

      Office of Inspector General
            Audit Report




         Fiscal Year 2000
    Financial Statement Audit -
        Management Letter




          September 17, 2001
                                    2001-13/23149-4
                            Fiscal Year 2000 Financial Statement Audit
                                     Management Letter Report

                                    Audit Report 2001-13/23149-4

                                          TABLE OF CONTENTS




Executive Summary ------------------------------------------------------------------------ i

Introduction -------------------------------------------------------------------------------- 1

Audit Objectives---------------------------------------------------------------------------- 1

Scope and Methodology ------------------------------------------------------------------- 2

Audit Results ------------------------------------------------------------------------------- 2

Current Year Findings and Recommendations---------------------------------------- 4

Management Response and OIG Evaluation ------------------------------------------ 8

Agency Comments ------------------------------------------------------------------- TAB A




                                             ABBREVIATIONS

AICPA                    American Institute of Certified Public Accountants 

ELAN                     Enterprise Local Area Network 

FMFIA                    Federal Manager’s Financial Integrity of 1982 

IRMD                     Information Resources Management Department 

LAN                      Local Area Network         

OIG                      Office of Inspector General 

PBGC                     Pension Benefit Guaranty Corporation 

PRISM                    Participant Records Information Systems Management 

SCF                      Separation Clearance Forms           

SDLC                     Systems Development Life Cycle





                                                                                    2001-13/23149-4
                         Fiscal Year 2000 Financial Statement Audit 

                                  Management Letter Report

                           OIG Report Number (2001-13/23149-4) 




                                   EXECUTIVE SUMMARY

        The Office of Inspector General (OIG) of the Pension Benefit Guaranty Corporation
(PBGC or the Corporation) engaged PricewaterhouseCoopers LLP (PricewaterhouseCoopers) to
conduct an audit of the financial statements of the Single-Employer Program and
Multiemployer Program Funds administered by PBGC, as of and for the years ended
September 30, 2000 and September 30, 1999. Our audits were performed in accordance with
standards established by the American Institute of Certified Public Accountants (AICPA) in the
United States of America, Government Auditing Standards, and pursuant to the methodology
set forth by the United States General Accounting Office’s (GAO) Financial Audit Manual (FAM).
Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement.

   As a result of our FY 2000 audit, we issued the following reports:

a.	 an unqualified opinion on PBGC’s statements of financial condition, and the related
    statements of operations and changes in net position and statements of cash flows, as of
    and for the years ended September 30, 2000, and September 30, 1999 (OIG report number
    2001-9/23149-2);

b.	 a report on internal control that identified three recurring reportable conditions (OIG report
    number 2001-9/23149-2). These reportable conditions were not deemed to be material
    weaknesses as defined by standards established by the AICPA in the United States of
    America; and

c.	 a report on PBGC’s compliance with laws and regulations that noted no instances of non-
    compliance with the provisions tested but noted a matter of emphasis on two
    multiemployer financial assistance payments executed in FY 2000, which, as determined
    by the OIG, warrant further evaluation of their compliance with ERISA, as amended, and
    applicable regulations (OIG report number 2001-9/23149-2).



       The reportable conditions we noted were: PBGC needs to integrate its financial
management systems and improve its systems development life cycle methodology; PBGC
needs to finalize and test its plan for maintaining continuity of operations; and PBGC needs to
implement and improve controls surrounding the Participant Records Information Systems
Management (PRISM) application. These reportable conditions were carried forward from our
FY 1999 report.




                                                -i-
                                                                                 2001-13/23149-4
        In addition to the reportable conditions specified above, we identified a number of
internal control weaknesses that, although not considered material weaknesses or reportable
conditions, we believe warrant the attention of management. Specifically, we downgraded the
fourth reportable condition on information protection from the FY 1999 internal control report
to a management letter finding in FY 2000. Although PBGC made substantial improvement in
protecting its information and the fourth reportable condition related to Information Protection
has been removed from the Internal Control Report, further strengthening of controls is
needed. Specifically, PBGC needs to reevaluate its overall organization-wide security
architecture (OIG Control Number IRMD-114), and PBGC needs to continue to finalize the
accreditation and certification of its systems (OIG Control Number IRMD-118).

        This management report discusses findings and recommendations for improvements in
the Corporation’s internal control that were identified during our audit of the fiscal year 2000
financial statements. It contains three (3) findings, which resulted in six (6) recommendations
that, although not considered material weaknesses or reportable conditions, we believe
warrant the attention of PBGC management.




                                              -ii-
                                                                            2001-13/23149-4
                  Summary of Findings and Recommendations                                 Page
                                                                                         Number

1. System user access was not always properly approved or terminated.                      5

PBGC should assign to a higher-level management official the responsibility to
perform the following and report the results to the Executive Director on a monthly
basis:

a. Verify that systems access is being properly authorized, in accordance with
   PBGC’s policies and procedures, prior to granting user access. (IRMD-128)

b. Verify that user access is being terminated properly and timely upon an
   individual’s termination, in accordance with PBGC’s policies and procedures.
   (IRMD-129)

c.   Verify that documentation supporting granting and terminating users’ access to
     the LAN is properly maintained, in accordance with PBGC’s policies and
     procedures. (IRMD-130)

Reconciliations of investment manager records with SSB Custodial Services’                 7
records were not always performed in a timely manner.

2. Strengthen reconciliation procedures between the investment managers and SSB
Custodial Services to identify timing differences in a timely manner and to make
necessary adjustments in SSB Blue Book to correctly reflect PBGC’s investments.
(FOD-284)

3. Strengthen PBGC’s monitoring procedures over the monthly reconciliations
performed between the investment managers and SSB Custodial Services.            (FOD-
285)

Invoices were not paid in accordance with the Prompt Payment Act of 1989.                  8

4. Compress the time from receipt of invoices to scheduled payment from 30 days to
less than 30 days. (FOD-286)

5. Develop procedures to monitor the progress of invoices through the accounting
system, enabling a more timely response in recording the invoice as a payable. (FOD-
287)

6. Perform an internal study related to the payment of interest on invoices, to
determine whether the interest is being paid in accordance with the Prompt Payment
Act. (FOD-288)




                                              -iii-
                                                                             2001-13/23149-4
                          Fiscal Year 2000 Financial Statement Audit
                                   Management Letter Report

                                 Audit Report 2001-13/23149-4


Introduction

        As a government corporation created by Title IV of the Employee Retirement Income
Security Act of 1974 (ERISA), the Pension Benefit Guaranty Corporation (PBGC or the
Corporation) protects the pensions of more than 43 million Americans in approximately 38,000
private defined benefit pension plans, including about 1,750 multiemployer plans. PBGC’s
mission is to operate as a service-oriented, professionally managed agency that protects
participants’ benefits and supports a healthy retirement plan system by: (1) encouraging the
continuation and maintenance of private pension plans for the benefit of their participants; (2)
providing timely payments of benefits in the case of terminated pension plans; and (3) making
the maximum use of resources and maintaining premiums and operating costs at the lowest
levels consistent with statutory responsibilities. PBGC finances its operations through
premiums collected from covered plans, assets assumed from terminated plans, collection of
employer liability payments due under ERISA, as amended, and investment income.



Audit Objectives

The objectives of our audit were to determine whether:

•	   The financial statements present fairly, in all material respects, the financial position of the
     Single-Employer Program and Multiemployer Program Funds administered by PBGC as of
     September 30, 2000, and September 30, 1999, and the results of their operations and cash
     flows for the years then ended, in conformity with accounting principles generally accepted
     in the United States of America.

•	   Management’s assertion that PBGC’s controls in effect as of September 30, 2000, provided
     reasonable assurance that assets were safeguarded from material loss and transactions
     were executed in accordance with management’s authority and with significant provisions of
     selected laws and regulations, and furthermore, PBGC management controls provided
     reasonable assurance that transactions were properly recorded, processed, and summarized
     to permit the preparation of the financial statements in accordance with accounting
     principles generally accepted in the United States of America and to maintain accountability
     for assets among funds is fairly stated, in all material respects, based upon criteria
     contained in the Federal Managers’ Financial Integrity Act of 1982 (FMFIA). This assertion
     is included in the Management’s Discussion and Analysis of Financial Condition and
     Results of Operations section of PBGC’s Fiscal Year (FY) 2000 Annual Report to the
     Congress.

•    PBGC is in compliance with significant provisions of applicable laws and regulations.




                                          1                                    2001-13/23149-4
Scope and Methodology

       The Office of Inspector General (OIG) of PBGC engaged PricewaterhouseCoopers to
conduct an audit of the financial statements of the Single-Employer Program and
Multiemployer Program Funds administered by PBGC as of and for the years ended September
30, 2000, and September 30, 1999.

        Our audits were performed in accordance with standards established by the American
Institute of Certified Public Accountants (AICPA) in the United States of America, Government
Auditing Standards, and pursuant to the methodology set forth by the United States General
Accounting Office’s Financial Audit Manual. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement.

       We performed tests of the accounting records and such other auditing procedures, as
we considered necessary in the circumstances. This involved performing tests at PBGC, State
Street Bank, three investment manager sites, one Premium Compliance Review contractor site,
and two Field Benefit Administrator sites. We did not perform tests related to standard
terminations or other areas since such events did not have a direct and material effect on the
financial statements.



Audit Results

       As a result of our FY 2000 audit, we issued the following reports:

       1.	 an unqualified opinion on PBGC’s statements of financial condition, and the related
           statements of operations and changes in net position and statements of cash flows,
           as of and for the years ended September 30, 2000, and September 30, 1999 (OIG
           Report 2001-9/23149-2);

       2.	 a report on internal control that identified three recurring reportable conditions
           (OIG Report 2001-9/23149-2). These reportable conditions were not deemed to be
           material weaknesses as defined by standards established by the AICPA in the
           United States of America; and

       3.	 a report on PBGC’s compliance with laws and regulations that noted no instances of
           non-compliance with the provisions tested but noted a matter of emphasis on two
           multiemployer financial assistance payments executed in FY 2000, which, as
           determined by the OIG, warrant further evaluation of their compliance with ERISA
           and applicable regulations (OIG Report 2001-9/23149-2).



        Our FY 2000 report on internal control included three reportable conditions that were
carried forward from FY 1999. The first reportable condition related to the lack of integration
of the Corporation’s financial management systems, including the need for an adequate
Systems Development Life Cycle (SDLC) methodology and for adequate systems development
monitoring and oversight. This reportable condition was also reported in FYs 1998, 1997 and
1996. During FY 2000, PBGC made notable progress in addressing the issue related to the
lack of a formal SDLC. However, additional work is required to ensure that PBGC’s financial
                                       2                                    2001-13/23149-4
management systems are integrated, the formal SDLC is fully implemented, and specific
criteria allowing the Corporation to effectively monitor systems’ outsourcing are identified and
followed.

        The second reportable condition related to the need to implement and test an adequate
plan for maintaining continuity of operations. This reportable condition was also reported in
FYs 1998 and 1999. During FY 2000, PBGC made notable progress by improving its disaster
recovery and business continuity plans. However, our FY 2000 audit still identified a number
of deficiencies that would impair PBGC’s ability to respond effectively to a disruption in
business operations.

        The third reportable condition related to the need to implement and improve controls
surrounding the Participant Records Information Systems Management (PRISM). This
condition also has been outstanding since FY 1998. While PBGC made progress in FY 2000 by
designing and implementing control procedures related to PRISM operations, our audit
identified several areas where controls could be further strengthened.

        In addition to the reportable conditions specified above, we identified a number of
internal control weaknesses that, although not considered material weaknesses or reportable
conditions, we believe warrant the attention of management. Specifically, we downgraded the
fourth reportable condition relating to information protection from the FY 1999 internal control
report to a management letter finding in FY 2000. Although PBGC made substantial
improvement in protecting its information resulting in this fourth reportable condition being
removed from the Internal Control Report, further strengthening of controls is needed.
Specifically, PBGC needs to reevaluate its overall organization-wide security architecture (OIG
Control Number IRMD-114), and to continue to finalize the accreditation and certification of its
systems (OIG Control Number IRMD-118).




                                       3                                    2001-13/23149-4
Findings and Recommendations

       This report contains three (3) findings, resulting in six (6) recommendations that PBGC
should implement to strengthen the Corporation’s internal control.



                              Summary of Recommendations                                         Page

1. PBGC should assign to a high-level management official the responsibility to perform the       6
   following and report the results to the Chief Information Officer on a monthly basis:

   a. Verify that systems access is being properly authorized, in accordance with PBGC’s
      policies and procedures, prior to granting user access. (IRMD-128)

   b. Verify that user access is being terminated properly and timely upon an individual’s
      termination, in accordance with PBGC’s policies and procedures. (IRMD-129)

   c.   Verify that documentation supporting granting and terminating users’ access to the LAN
        is properly maintained, in accordance with PBGC’s policies and procedures. (IRMD-
        130)

2. Strengthen reconciliation procedures between the investment managers and SSB Custodial         7
   Services to identify timing differences in a timely manner and to make necessary
   adjustments in SSB Blue Book to correctly reflect PBGC’s investments     (FOD-284)

3. Strengthen PBGC’s monitoring procedures over the monthly reconciliations performed             7
   between the investment managers and SSB Custodial Services. (FOD-285)

4. Compress the time from receipt of invoices to scheduled payment from 30 days to less than      8
   30 days. (FOD-286)

5. Develop procedures to monitor the progress of invoices through the accounting system,          8
   enabling a more timely response in recording the invoice as a payable. (OIG Control
   Number (FOD-287)

6. Perform an internal study related to the payment of interest on invoices, to determine         8
   whether the interest is being paid in accordance with the Prompt Payment Act. (OIG
   Control Number (FOD-288)




                                         4                                    2001-13/23149-4
1. COMPLIANCE WITH PBGC’S POLICIES AND PROCEDURES NEEDS STRENGTHENING

      An entity develops and implements policies and procedures to help provide order,
  ensure consistency in processing among personnel, and provide guidance to new or
  reassigned personnel. Management also develops policies to help ensure compliance with
  applicable laws and regulations, to guide personnel in the implementation of internal
  controls, and to help prevent fraud, waste, or abuse from occurring and not being detected
  timely. If policies and procedures are not followed, inconsistent or ineffective processing of
  accounting transactions may occur and not be detected in a timely manner, resulting in
  possible errors or irregularities. We identified the following instances where compliance
  with PBGC’s policies and procedures needed further strengthening:

  1.1    System user access was not always properly approved or terminated.

              To protect its information from unauthorized use, an entity is responsible for
         establishing and enforcing adequate controls surrounding its automated systems
         environment. During our FY 2000 audit, we identified instances where Enterprise
         Local Area Network (ELAN) user access request forms were not always properly
         completed for users of the various departments or were not maintained by PBGC, as
         follows:

             ELAN access request forms were not on file for some users;

             Some ELAN access request forms did not have user signatures;

         	   Some ELAN access request forms did not show evidence of management
              approval, and

             None of the necessary paperwork was maintained by PBGC for some users.

             The Information Resources Management Department (IRMD) established PBGC
         Access and Physical Security Procedures that allows authorized personnel to obtain
         access to the PBGC LAN. Part of these Procedures is an ELAN access request form
         to grant user access to PBGC’s Local Area Network (LAN). These forms are available
         from the IRMD Help Desk. The Procedures require that the forms be completed by
         PBGC staff and submitted to the Help Desk to obtain access to PBGC systems.
         Further, documentation supporting users’ access to the LAN should be maintained
         to provide management with assurance that controls have been properly
         implemented. Without following these guidelines, LAN access may be given to
         unauthorized users or inappropriate levels of access (i.e., update access instead of
         read-only access) may be given to users. Additionally, users may be granted access
         to information that is not needed to perform their responsibilities. Unauthorized
         access to the LAN places PBGC’s information at greater risk of vulnerability.

             Additionally, we noted that user access was not removed in a timely manner
         after employees had been terminated. This issue was reported in a prior OIG
         report. Specifically, PBGC requires employees who are leaving PBGC employment
         to obtain signatures on Separation Clearance Forms (SCF) to indicate that they
         have, among other things, returned PBGC property and have no outstanding debts.



                                      5                                    2001-13/23149-4
These forms are also used to terminate access to PBGC systems and accounts. We
identified the following problems:

•    SCFs were not maintained for all terminated employees.

•    SCFs did not indicate whether users retained PBGC property.

•    SCFs were not signed by terminated employees.

•    SCFs were not approved by the Human Resources Department.

•	   System access was not removed within five business days for terminated
     employees.

    PBGC’s policies and procedures require that terminated users’ access to the
LAN, applications, and PBGC e-mail must be promptly removed. Without enforcing
these procedures, unauthorized individuals may retain access to confidential or
sensitive information, which compromises the privacy and protection of PBGC’s
information. This is a violation of PBGC’s security policy.

                                  Recommendations

We recommend the following corrective actions:

PBGC should assign to a high-level management official the responsibility to perform
the following and report the results to the Chief Information Officer on a monthly basis:

a.	 Verify that systems access is being properly authorized, in accordance with
    PBGC’s policies and procedures, prior to granting user access. (IRMD-128)

b.	 Verify that user access is being terminated properly and timely upon an
    individual’s termination, in accordance with PBGC’s policies and procedures.
    (IRMD-129)

c.	 Verify that documentation supporting granting and terminating users’ access to the
    LAN is properly maintained, in accordance with PBGC’s policies and procedures.
c. (IRMD-130)




                             6                                     2001-13/23149-4
1.2	   Reconciliations of investment manager records with State Street Bank
       Custodial Services’ records were not always performed in a timely
       manner.

           During the FY 2000 audit, we identified investment transactions with FY 2000
       trade dates that were not recorded in PBGC’s general ledger until FY 2001. These
       were as follows:
          Sale of Government Securities                                $59,097,911
          Sale of Corporate Stock                                       $2,738,989
          Purchase of Corporate Stock                                   $1,483,751
           PBGC’s accounting policy requires that investment (security) transactions be
       recorded as of the trade date, rather than the settlement date of the transaction. As
       a result, these transactions were not properly accounted for in PBGC’s FY 2000
       financial statements.

           State Street Bank (SSB) Custodial Services did not include these transactions in
       the September 2000 SSB Blue Book as open sales and purchases of PBGC’s
       investments until after PBGC’s fiscal year-end. The SSB Blue Book maintains
       accounting information for trust fund investments, which PBGC uses to prepare
       journal entries related to trust fund activities. The exclusion of these transactions
       from the appropriate period in the SSB Blue Book were not clearly identified during
       the monthly reconciliation process between SSB and the respective investment
       managers. These transactions should have been identified as timing differences
       between the investment manager records and SSB Custodial Services’ records, and
       SSB Custodial Services should have made appropriate adjustments in the SSB Blue
       Book to ensure that the balances accurately reflected trades as of trade date.
       Furthermore, PBGC should have identified these differences during their year-end
       review of the reconciliations and address necessary corrective action.

           If all trades as of the period end are not identified, PBGC may misstate its
       investment component balances such as Due to/from Sale of Securities and
       Realized Gain/Loss on its financial statements.

                                        Recommendation

       We recommend the following corrective action:

       Strengthen reconciliation procedures between the investment managers and SSB
       Custodial Services to identify timing differences in a timely manner and to make
       necessary adjustments in SSB Blue Book to correctly reflect PBGC’s investments.
       (FOD-284)

       Strengthen PBGC’s monitoring procedures over the monthly reconciliations performed
       between the investment managers and SSB Custodial Services.(FOD-285)




                                   7                                    2001-13/23149-4
1.3   Invoices were not paid in accordance with the Prompt Payment Act of 1989.

           During our FY 2000 testing of accounts payable, we identified instances in
      which invoices were not paid by PBGC in a timely manner. In addition, our testing
      of late payments indicated that interest was not always properly added to the
      delayed invoices in compliance with the Prompt Payment Act provisions.

          The inability to pay invoices timely was caused by failure of both the General
      Accounting Branch (GAB) in the Controller’s Division and the individual
      departments to resolve matters related to the invoice upon the receipt of goods or
      services. Our samples indicated delays in the individual departments stamping
      invoices as received and significant delays in returning the invoice to be recorded
      for payment in the payable system.

          GAB does not effectively use its monitoring or tracking capability to record the
      invoices promptly nor to follow up once the invoice has been delivered to its
      intended department. Difficulties in transition to the Performance Accounting
      System also indicated problems in recognizing how to use the capabilities of the
      system of record.

          Management needs to reconsider its procedures to: (1) provide more timely
      processing of particular transactions for review and approval, especially tracking
      the progress of invoices; and (2) more timely processing of payments once the
      invoice is returned from the individual department.



                                       Recommendations

      We recommend the following corrective actions:

      Compress the time from receipt of invoices to scheduled payment from 30 days to less
      than 30 days. (FOD-286)

      Develop procedures to monitor the progress of invoices through the accounting system,
      enabling a more timely response in recording the invoice as a payable. (FOD-287)

      Perform an internal study related to the payment of interest on invoices, to determine
      whether the interest is being paid in accordance with the Prompt Payment Act. (FOD-
      288)



  MANGEMENT RESPONSE AND OIG EVALUATION

       A draft report was provided to the Agency for comment. PBGC officials concurred
  with the findings and recommendations (see Tab A). The OIG has resolved all issues
  raised during the audit.




                                   8                                    2001-13/23149-4
Tab A

